No. ___-______

In The

Supreme Court of the United States
--------------∞∞-------------LAWRENCE MARANO,

Petitioner,

v.

THE METROPOLITAN MUSEUM OF ART,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

J AMES H. FREEMAN, ESQ.
LIEBOWITZ LAW FIRM, PLLC
1333A North Ave., Ste. 762
New Rochelle, NY 10804
(516) 233-1660
jf@liebowitzlawfirm.com
Attorneys for Petitioner

i
QUESTIONS PRESENTED
1.

Whether The Metropolitan Museum of Art’s
commercial use of a photograph on its
Website to sell tickets to its museum
exhibition, as well as in the “brick-andmortar” exhibition itself, was sufficiently
transformative to warrant a finding in favor
of fair use on the first statutory factor, 17
U.S.C §107(1).

2.

Whether Petitioner stated a plausible claim
that The Met’s use of his photograph was for
commercial purposes.

3.

Whether The Met’s use of the photograph
across multiple media platforms without
any attribution or credit to the Petitionerphotographer constituted bad faith so as to
weigh against a finding fair use.

4.

Whether The Met’s use of the photograph
usurped the actual or potential licensing
market.

5.

Whether the Court of Appeals properly
analyzed the remaining statutory factors in
light of its finding of transformative use.

ii
PARTIES TO THE PROCEEDING
Petitioner Lawrence Marano (“Petitioner” or
“Marano”)
is
a
professional
Florida-based
photographer in the business of licensing his
photographs for a fee.
Respondent The Metropolitan Museum of Art
(the “Met” or “Respondent”) is a prestigious museum
of fine arts located in New York, New York.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................ i
PARTIES TO THE PROCEEDING ........................... ii
TABLE OF AUTHORITIES ...................................... vi
PETITION FOR CERTIORARI.................................. 1
OPINIONS BELOW ................................................... 3
JURISDICTION.......................................................... 4
STATUTORY PROVISIONS INVOLVED ................. 4
STATEMENT OF THE CASE .................................... 5
REASONS FOR GRANTING THE PETITION ......... 8
POINT I: THE MET’S USE OF THE
PHOTOGRAPH WAS NOT
SUFFICIENTLY
TRANSFORMATIVE ............................. 9
POINT II: IT IS PLAUSIBLE THAT THE MET’S
USE WAS COMMERCIAL RATHER
THAN NON-PROFIT .......................... 11
POINT III: THE MET’S USE WAS IN BAD FAITH
BECAUSE IT FAILED TO PROPERLY
CREDIT MARANO .............................. 13
POINT IV: THE MET’S UNAUTHORIZED USE
PLAUSIBLY CAUSED ACTUAL
MARKET HARM AS WELL AS HARM
TO THE POTENTIAL MARKET ........ 15

iv
POINT V: THE LOWER COURTS DID NOT
PROPERLY WEIGH THE FOUR
STATUTORY FACTORS..................... 20
CONCLUSION AND RELIEF SOUGHT ................ 22
TREATISES
3 Nimmer § 13.05[A], at 13–72 ................................ 13
Nimmer § 13.05[B][6], at 13.224.20 ......................... 20

v
APPENDIX
Opinion of the United States Court of Appeals
for the Second Circuit, dated April 2, 2021 ............ 1a
Opinion of the United States District Court, S.D.
New York, dated July 13, 2020 ............................... 9a

vi
TABLE OF AUTHORITIES
CASES

American Geophysical Union v. Texaco Inc.,

60 F.3d 913, 922 (2d Cir. 1994) ....................... 12, 16

Associated Press v. Meltwater U.S. Holdings, Inc,

931 F.Supp.2d at 552 (S.D.N.Y. 2013)........... passim

Blanch v. Koons,

467 F.3d 244, 251 (2d Cir. 2006) ............................. 9

Browne v. Mcain,

612 F.Supp. 2d 1125, 1130 (C.D. Cal. 2009) ........ 18

Campbell v. Acuff– Rose Music, Inc.,

510 U.S. 569, 579 (1994) ................................ passim

Cariou v. Prince,
714 F.3d 694, 708 (2d Cir. 2013) ........................... 16
Consumers Union of U.S., Inc. v. Gen. Signal Corp.,

724 F.2d 1044, 1049 (2d Cir. 1983) ....................... 12

Cruz v. Cox Media Grp., LLC,

444 F. Supp. 3d 457 (E.D.N.Y. 2020) ................ 9, 10

Debra Rothenberg v. The Museum of Fine Arts,
Houston,

4:19-cv-03026-GCH (S.D. Texas – Houston Div.) 18

Ferdman v. CBS Interactive Inc.,

342 F. Supp. 3d 515, 535 (S.D.N.Y. 2018) ............ 21

vii

Fitzgerald v. CBS Broadcasting,

491 F.Supp.2d 177, 189 (D. Mass. 2007) .............. 17

Harper & Row v. Nation Enterprises,

471 U.S. 539 (1985) ................................... 13, 15, 17

Hirsch v. Complex Media, Inc.,

No. 18 CIV. 5488 (CM), 2018 WL 6985227, at *6
(S.D.N.Y. Dec. 10, 2018) .................................. 10, 14

Marcus v. Rowley,

695 F.2d 1171, 1175–76 (9th Cir.1983) ................ 14

Michael Grecco Prods., Inc. v. Valuewalk, LLC,

345 F. Supp. 3d 482, 508–09 (S.D.N.Y. 2018) ...... 19

NXIVM Corp. v. Ross Institute,

364 F.3d 471, 478 (2d Cir. 2004) ........................... 13

Oracle Am., Inc. v. Google LLC,

886 F.3d 1179, 1203 (Fed. Cir. 2018), cert.
granted, 140 S. Ct. 520, 205 L. Ed. 2d 332 (2019) 13

Otto v. Hearst Commc'ns, Inc.,

345 F. Supp. 3d 412 (S.D.N.Y. 2018) .............. 10, 17

Psihoyos v. Nat'l Exam'r,

No. 97 CIV. 7624 (JSM), 1998 WL 336655, at *3
(S.D.N.Y. June 22, 1998) ....................................... 10

Ringgold v. Black Entertainment Television, Inc.,

126 F.3d 70, 79 (2d Cir. 1997)........................... 9, 15

viii

Sony Corp. of America v. Universal City Studios,
Inc.,

464 U.S. 417, 450 (1984) ................................. 15, 16

TCA Television Corp. v. McCollum,

839 F.3d 168, 186 (2d Cir. 2016) ..................... 16, 20

STATUTES
17 U.S.C. § 107 ................................................... passim
28 U.S.C. § 1254(1) ..................................................... 4

1
PETITION FOR CERTIORARI
This case addresses The Met’s unlicensed
expropriation of an iconic photograph of the legendary
Rock ‘n’ Roll musician Eddie Van Halen (the
“Photograph”), which was used as part of a museum
exhibition in 2019, both on the Met’s website and at
its Fifth Avenue “brick-and-mortar” location.
Notably, the Met did not provide any
attribution to the photographer Lawrence Marano
and the Photograph itself was not the object of the
exhibition, but merely used as an illustrative device to
spotlight Van Halen’s eccentric “Frankenstein” guitar.
The U.S. District Court for the Southern District
of New York issued an Order to Show Cause two days
after the complaint was filed, asking Marano to show
cause why the action should not be dismissed on
grounds of fair use. Accordingly, the presumption at
the outset of this case was that museums are cultural
institutions dedicated to enriching the public sphere
and should therefore be immunized to infringement
liability (unless Petitioner showed otherwise). The
U.S. Court of Appeals for the Second Circuit affirmed,
resting primarily on the status and identity of
Respondent as a non-profit museum which, by its very
nature, functions to display historical artifacts or other
works deemed of cultural significance.
The
District
Court
identified
“three
dimensions” of transformativeness: (1) the Met used
the Photograph as an “historical artifact” to represent
the Frankenstein guitar in action; (2) the Met used the
Photograph in a scholarly context, i.e. a museum; and

2
(3) the Photograph was published on-line along with
hundreds, if not thousands of other photographs.
But all three dimensions identified by the
District Court could be applied to virtually any
secondary use of any photograph by a museum such
as The Met. As to the first dimension, in every case
where a photograph has, through the passage of time,
acquired historical significance, a court could simply
determine transformativeness as a matter of law,
thereby stripping a vintage photograph of protection.
The
second
dimension
also
operates
generically, as such finding would apply to any work
of art displayed in a museum, because museums serve
a scholarly function (at least in part).
As to the third dimension, this factor can also
be applied generically to any photograph on The Met’s
on-line catalogue. It would always be the case that a
single photograph shown on the Met’s on-line
catalogue would co-exist with hundreds, maybe
thousands, of other images.
Notably, Respondent’s use of the Photograph
here was not “reduced size”. Rather, Respondent
expropriated a full scale, full-color reproduction of the
Photograph and placed it on prominent display on its
website as a means to advertise its “brick and mortar”
exhibition of the Frankenstein guitar. Even though
the Photograph was used to explain to the public why
the Frankenstein guitar embodied any significance at
all, the District Court described the Defendant’s use
of the Photograph as “almost an afterthought.”

3
In short, all three dimensions identified by the
District Court, as affirmed by the Court of Appeals,
are geared towards the identical concept: that
museums have an unfettered right to display
photographs as a means to illustrate the historical
significance of exhibits on showcase, without
permission from the copyright holder.
There is no question that Plaintiff’s photograph
has historical value. The same can be said for any
photograph of any Rock n’ Roll icon: Janis Joplin, Jimi
Hendrix, Jim Morrison, etc. But that’s all the more
reason why museums such as The Met need to obtain
the Artist’s permission to exhibit their work: because
the work appreciates over time.
Petitioner has a right to be compensated for
creating an iconic image that a prestigious museum
wants to display for its paying clientele. The Met
should pay the fair price, credit the photographer and
establish a protocol moving forward for seeking
permission from photographers to display their work
to its patrons.
In sum, the Second Circuit’s overly broad
application of the fair use doctrine should be rejected,
and the Court should reverse the District Court’s
ruling and remand this case for further proceedings.
OPINIONS BELOW
The Second Circuit’s opinion, dated April 2,
2021 is reported as 844 Fed.Appx. 436. The opinion of
the District Court for the Southern District of New

4
York, dated July 13, 2020 is reported at 472 F.Supp.3d
76.
JURISDICTION
The Second Circuit rendered its decision on
April 2, 2021. This Court has jurisdiction under 28
U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
This case concerns the following statutory
provisions: 17 U.S.C. § 107

5
STATEMENT OF THE CASE
A.

The Parties

Marano is a Florida-based professional
photographer with decades of experience as a “Rock
n Roll” photographer. Marano is in the business of
licensing his photographs for a fee.
The Met is a sophisticated purveyor of
copyrighted works which operates a website at the
URL www.metmuseum.org (the “Website”) and a
brick-and-mortar museum at The Met Fifth Avenue,
New York. According to The Met, it is “the largest
art museum in the United States and one of the
foremost cultural institutions in the world.” The
Met is a registered 501(c)(3) nonprofit organization.
However, according to The Met’s website, The Met
charges admission to visit the galleries on Fifth
Avenue: $25 for adults; $17 for seniors; $12 for
students. This general admission fee is only charged
to out of town visitors and not New York State
residents, local students, or Museum members.
Access to The Met’s Website, which it calls the
Online Exhibition Catalogue, is available to the
public at no charge. However, the Website contains
hyperlinks which invites its virtual visitors to “Buy
Tickets” for admission to the Museum and to “Make
a Donation.”

6
B.

Marano’s Photograph of Eddie Van Halen and
the “Frankenstein Guitar”

On October 8, 1982, Plaintiff created a
Photograph depicting Eddie Van Halen of the rock
group Van Halen as he performed on stage at Madison
Square Garden in New York City (the “Photograph”)
At the time the Photograph was taken, Van Halen was
playing
a
custom-made
guitar
called
the
“Frankenstein” guitar (the “Guitar”).
During all times relevant to this action, the
Photograph was made available for licensing on the
leading stock photograph agency, Getty Images.com,
and continues to be available.
C.

The Play it Loud Exhibition – At The Met
Fifth Avenue (April 8-October 1, 2019)

According to the evidence produced by The Met,
from April 8 to October, 2019, The Met featured an
exhibition at its Fifth Avenue location in New York
City entitled Play it Loud: Instruments of Rock & Roll
(the “Exhibition” or “Play it Loud”). The Exhibition
was designed to showcase “the instruments of rock
and roll.”
The Met promoted and sold tickets to the
Exhibition through an Online Exhibition Catalogue.
In both the Exhibition’s galleries on Fifth Avenue and
the Online Exhibition Catalogue, The Met “provided
interpretative text, photographs, and multimedia
presentations showing many of the instruments on
display being played by musicians such as Chuck

7
Berry, The Beatles, Joan Jett, and The Rolling
Stones.” In order to view the Exhibition in person,
out-of-state patrons would need to “Buy Tickets.”
According to The Met’s Website, “Exhibitions are free
with Museum admission.”
D.

The Met’s Unauthorized Display of the
Photograph on its Website

The evidence attached to the Complaint shows
that The Met displayed the Photograph on its
Website, without providing any attribution to
Marano. The Met used the entire Photograph, in full
scale and full color, without any cropping or other
aesthetic modification. Directly above the display of
the Photograph on the Website, The Met invited its
virtual users to “Buy Tickets” or “Make a Donation”.
Directly below the display of the Photograph,
the Website provides the “Object Details” about the
Frankenstein electric guitar, including the name and
birth year of the “Artist” (Eddie Van Halen -1955), the
“Date” the Guitar was created (1975), the “Medium”
(ash, maple, nickel, chrome, plastic, spray paint), the
“Dimensions”, the “Classification” (ChordophoneLute-plucked-fretted) and the “Credit Line” (Courtesy
of Eddie Van Halen).
Prior to the filing of this lawsuit, the text
provided on The Met’s Website makes no reference to
the Photograph itself, nor to the Photograph’s author,
its source, its date of creation nor its history In other
words, Marano’s Photograph is not the object of the
Met’s exhibition of the Guitar; but is instead being

8
used as an illustrative aid to show the Guitar in
musical performance by Van Halen.
E.

The Met’s Unauthorized Display of the
Photograph at the Museum’s Fifth Avenue
Exhibition

In addition to using the Photograph on its
Website to promote the Exhibition, The Met also used
the Photograph as part of the “brick-and-mortar”
Exhibition where the Guitar was on physical display.
Although the Complaint does not allege use of the
Photograph by The Met in the Museum’s physical
location, Marano’s initial brief in response to the
District Court’s order to show cause does allege that
The Met used the Photograph in the physical
exhibition on Fifth Avenue. Moreover, The Met
admits that it used the Photograph as part of the
physical Exhibition, as well as in a separate video on
the Website.
REASONS FOR GRANTING
THE PETITION
The Court of Appeals’ affirmance of the District
Court’s granting of The Met’s Rule 12(b)(6) motion to
dismiss for failure to state a claim should be reversed
because The Met’s secondary use of the Photograph
was not sufficiently transformative, was commercial
in nature (despite The Met’s non-profit status), was in
bad faith and plausibly usurped the actual market for
the Photograph.

9
POINT I:

THE MET’S USE OF THE
PHOTOGRAPH WAS NOT
SUFFICIENTLY TRANSFORMATIVE

The first factor under 17 U.S.C. § 107(1), which
addresses the purpose and character of the secondary
use, is the “heart of the fair use inquiry.” Blanch v.
Koons, 467 F.3d 244, 251 (2d Cir. 2006).
The fair use doctrine “allows for new
transformative works that further the public
discourse and the free exchange of ideas in order to
promote science and the arts.” See Campbell v. AcuffRose Music, Inc., 510 U.S. at 579 (1994). The central
purpose of the inquiry is to determine whether “the
new work merely supersedes the objects of the original
creation, or instead adds something new, with a
further purpose or different character, altering the
first with new expression, meaning, or message.”
Ringgold v. Black Entertainment Television, Inc., 126
F.3d 70, 79 (2d Cir. 1997) (citations omitted).
The Court of Appeals determined that the
secondary use was transformative as a matter of law
because The Met’s exhibition used the Photograph to
highlight the Guitar rather than Van Halen. The
Court of Appeals also found that the Photograph was
displayed in connection with text which described the
historical significance of the Guitar (as well as other
instruments).
However, use of a photograph to describe the
content depicted in the image is not transformative.
See, e.g., Cruz v. Cox Media Grp., LLC, 444 F. Supp.

10
3d 457 (E.D.N.Y. 2020) (secondary use of a photograph
of a terrorist suspect held not transformative where
news organization published a descriptive report of
the arrest); Otto v. Hearst Commc'ns, Inc., 345 F.
Supp. 3d 412 (S.D.N.Y. 2018) (photograph of President
Trump crashing a wedding held not transformative
because the photograph itself was not the object of any
controversy); Hirsch v. Complex Media, Inc., No. 18cv-5488 (CM), 2018 WL 6985227, at *6 (S.D.N.Y.,
December 10, 2018) (“Complex has not established
that its Video did anything more than merely describe
the subject of Hirsch’s Photograph, newsworthy or
not. That conduct alone does not suffice as
transformative.”); Psihoyos v. Nat'l Exam'r, No. 97
CIV. 7624 (JSM), 1998 WL 336655, at *3 (S.D.N.Y.
June 22, 1998) (where photograph of an art car was
republished in a news article, publisher’s “use is not
transformative, because its piece uses the photo to
show what it depicts.”).
Under the above-cited lines of cases, in order to
find the Met’s use to be transformative, the original
Photograph itself must be the object of the Museum’s
Exhibition. Had the Met used the Photograph itself as
the object of a museum exhibition, for example, to
spotlight the “Top Ten Iconic Images of Rock Stars,”
or to comment on the artistic merits of the
Photograph, or historical significance of Rock n Roll
imagery in general, or to highlight the professional
lives of Rock n Roll photographers, then maybe the
Met would have a colorable claim of transformative
use of the Photograph.

11
But neither the Website’s display of the
Photograph nor the Play It Loud Exhibition say
anything whatsoever about the Photograph. Indeed,
prior to the filing of this lawsuit, the Website
contained no information about the photographer, the
date when the Photograph was taken, where the
Photograph was taken, or information about how the
Photograph was captured.
A secondary user’s wholesale reproduction of a
Photograph to show the historical significance of
objects depicted in the Photograph should not be
considered transformative as a matter of law. Such
standard threatens to strip virtually every
photograph of its copyright protection because no
photograph is immune to the passage of time. The fact
that the subject matter of the Photograph has
acquired historical significance over time should be of
no legal import in the transformative inquiry, as the
same could be said for virtually any photograph.
In sum, because The Met failed to use the
Photograph itself as the object of its museum
exhibition; but instead used it to merely describe the
content depicted in the issue, there can be no
transformative effect.
POINT II:

IT IS PLAUSIBLE THAT THE MET’S
USE WAS COMMERCIAL RATHER
THAN NON-PROFIT

The first statutory factor specifically instructs
courts to consider whether copyrighted materials are
used for a commercial purpose or for a nonprofit

12
educational purpose, the former tending to weigh
against a finding of fair use. Campbell, 510 U.S. at
585.
Here, the Court of Appeals determined that The
Met’s use was not commercial because The Met is a
non-profit organization that was established as a
museum and because the Website does not charge
admission to view photographs on-line. However, that
doesn’t mean The Met hasn’t acquired conspicuous
financial reward from the Play it Loud Exhibition. The
record shows that the Met used the Photograph to
advertise its “brick-and-mortar” Exhibition, which
required payment of substantial fees to enter for outof-state visitors (contrary to the Court of Appeals’
conclusion, a $25 ticket is not a “nominal fee” for the
great majority of citizens).
The Met invited web users to “Buy Tickets” or
“Make a Donation” directly above display of the
Photograph. This supports Marano’s position that the
Photograph was being used to solicit visitor interest
and generate income for the Met. Such use could be
deemed commercial. See, e.g., American Geophysical
Union v. Texaco Inc., 60 F.3d 913, 922 (2d Cir. 1994)
(stating that fair use claim will not be sustained when
secondary use can fairly be characterized as
“commercial exploitation” (internal quotation marks
omitted)); Consumers Union of U.S., Inc. v. Gen.
Signal Corp., 724 F.2d 1044, 1049 (2d Cir. 1983)
(observing that some infringement actions involve
copying of creative expression for “purpose of having
that precise form of expression advance someone else’s
commercial interests -- for example, using well-known

13
copyrighted lines
advertisement”).

to

attract

attention

to

an

POINT III: THE MET’S USE WAS IN BAD FAITH
BECAUSE IT FAILED TO PROPERLY
CREDIT MARANO
“Also relevant to the ‘character’ of the use is ‘the
propriety of the defendant's conduct.’ Harper & Row
v. Nation Enterprises, 471 U.S. 539, 562 (1985) (citing
3 Nimmer § 13.05[A], at 13–72). “As the term itself
suggests, ‘[f]air use presupposes good faith and fair
dealing.’ Associated Press v. Meltwater US Holdings,
Inc., 931 F.Supp.2d 537, 552 (S.D.N.Y. 2013) (citing
Harper & Row, 471 U.S. at 562 (quoting Schulman,
Fair Use and the Revision of the Copyright Act, 53
Iowa L.Rev. 832 (1968)). Thus, in weighing the first
factor, the Court may also consider “the propriety of a
defendant’s conduct.” NXIVM Corp .v. Ross Institute,
364 F.3d 471, 478 (2d Cir. 2004) (citations omitted);
see also Oracle Am., Inc. v. Google LLC, 886 F.3d
1179, 1203 (Fed. Cir. 2018), cert. granted, 140 S. Ct.
520, 205 L. Ed. 2d 332 (2019) (“bad faith may weigh
against fair use”)
Here, the Met’s bad faith is evidenced by the
fact that the Met failed to provide Marano’s
attribution in connection with its display of the
Photograph over multiple media platforms (even
though it knew or should have known that Marano
was the copyright holder). 1
The Met corrected this omission in response to this lawsuit.
However, the propriety of The Met’s conduct should be measured
1

14
The Met’s omission of any credit to Marano
demonstrates the Met’s absence of good faith and fair
dealing in its use of the Photograph. See, e.g., Hirsch
v. Complex Media, Inc., No. 18 CIV. 5488 (CM), 2018
WL 6985227, at *6 (S.D.N.Y. Dec. 10, 2018) (rejecting
fair use defense and finding that news organization’s
omission of photographer’s authorship credit provided
an inference of bad faith); Marcus v. Rowley, 695 F.2d
1171, 1175–76 (9th Cir.1983) (no attempt to credit
copyright owner weighs against fair use).
The Met claims that it “has the utmost respect
for artists, including photographers, and their need to
protect their rights.” However, the fact that The Met
holds itself out as a champion of photographers’
rights, but then brazenly failed to credit Marano as
the author of the Photograph during the relevant
timeframe, is inexcusable and should disqualify The
Met from availing itself of the fair use privilege, which
itself is an “equitable doctrine”, Rogers, 960 F.2d at
309 that “presupposes good faith and fair dealing.”
Associated Press, 931 F.Supp.2d at 552
Finally, there are questions of material fact as
to the degree of bad faith involved in the Met’s
decision to omit Marano’s attribution from the
Photograph. For example, discovery could reveal that
the Met’s organizers deliberately omitted Marano’s
attribution to conceal its own infringement. Or maybe
the Met believed that crediting photographers was
simply unnecessary, which would indicate a reckless
disregard for photographers’ rights. Either way,
as of the time of the alleged infringement, not after this lawsuit
was filed.

15
additional evidence obtained from discovery could
help inform the overall analysis of the first fair use
factor, which was prematurely decided by the District
Court.
POINT IV:

THE MET’S UNAUTHORIZED USE
PLAUSIBLY CAUSED ACTUAL
MARKET HARM AS WELL AS HARM
TO THE POTENTIAL MARKET

The final fair use factor considers “the effect of
the use upon the potential market for or value of the
copyrighted work.” 17 U.S.C. § 107(4). This Court
declared in Harper & Row that “[t]his last factor is
undoubtedly the single most important element of fair
use.” 471 U.S. at 566 (footnote and citation omitted).
The fourth factor “requires courts to consider
not only the extent of market harm caused by the
particular actions of the alleged infringer, but also
whether unrestricted and widespread conduct of the
sort engaged in by the defendant would result in a
substantially adverse impact on the potential market
for the original.” Ringgold, 126 F.3d at 80-81 (citing
Campbell, 510 U.S. at 590 (quotation omitted)).
A copyright owner is not required to show that
actual harm has come to her, Sony Corp., 464 U.S. at
451, but must show merely a “potential” effect on the
market for the copyrighted work. Harper & Row, 471
U.S. at 568–69.
The Court therefore properly
considers the challenged use’s “impact on potential
licensing revenues for traditional, reasonable, or
likely
to
be
developed
markets.” American

16

Geophysical Union, 60 F.3d at 930; accord Swatch
Grp. Mgmt. Servs., 756 F.3d at 91. Accordingly, “to
negate fair use one need only show that if the
challenged use should become widespread, it would
adversely affect the potential market for the
copyrighted work.” Id.
Here, the Court of Appeals “disregarded the
possibility of defendants’ use adversely affecting the
licensing market for the” Photograph. TCA Television
Corp. v. McCollum, 839 F.3d 168, 186 (2d Cir. 2016),
(citing Cariou v. Prince, 714 F.3d 694, 708 (2d Cir.
2013) (stating that fourth factor “does not focus
principally on the question of damage to [a] derivative
market”)).
As a threshold matter, the Court may presume
market harm because the Met’s secondary use was not
transformative and constituted a wholesale
reproduction of Marano’s original photograph. See
Sony Corp. of America v. Universal City Studios, Inc.,
464 U.S. 417, 450 (1984) (holding that “every
commercial use of copyrighted material is
presumptively an unfair exploitation of the monopoly
privilege that belongs to the owner of the copyright”).
“A presumption of market harm “makes common
sense[ ] when a commercial use amounts to mere
duplication of the entirety of an original.” Campbell,
510 U.S. at 591.
Even if Sony’s presumption does not apply, the
Met’s secondary use impairs the actual market for the
Photograph because, as the Met’s own evidence shows,
there was a fully functioning market demand for the

17
Photograph as it was available for license through
Getty Images. See Associated Press, 931 F.Supp.2d at
559 (“Where there is a fully functioning market for the
infringer’s use of the copyrighted material, it will be
difficult for the infringing party to show that it made
fair use without paying a licensing fee”) (citing Harper
& Row, 471 U.S. at 566 n. 9).
The Met’s unauthorized use clearly supplanted
the market in which Marano had a reasonable
expectation to earn licensing revenue. See, e.g.,
Fitzgerald v. CBS Broadcasting, 491 F.Supp.2d 177,
189 (D. Mass. 2007) (“CBS’s use of the photographs is
paradigmatic of the only market the photographs
could reasonably have: licensing to media outfits . . . .
If the Court finds that CBS’s use was fair use, then all
of these media uses—and uses like them in the
future—would also be fair use, destroying the only
potential market that exists for the photographs”);
Otto, 345 F. Supp. 3d at 432–33 (“Publishing the
Photograph without permission essentially destroys
the primary market for its use . . . The fact that the
Photograph was reported on so widely indicates that
there was indeed a market for it . . . Thus, the
publication can reasonably be expected to harm
Plaintiff’s ability to license the work for publication
and use in derivative works.”).
The Court of Appeal’s conclusion that “[t]here is
no indication in the record that the Met’s use of the
Photo on a web page describing the Frankenstein
guitar could, in any way, impair any other market for
commercial use of the Photo, or diminish its value” is
not sustainable. On a Rule 12(b)(6) motion, Marano

18
was not required to place evidence on the record to
negate one of the elements of The Met’s affirmative
defense.
In Debra Rothenberg v. The Museum of Fine
Arts, Houston, 4:19-cv-03026-GCH (S.D. Texas –
Houston Div.), the plaintiff-photographer asserted a
copyright infringement claim against the Museum of
Fine Arts, Houston (“MFAH”) for displaying on its
public-facing website an historic photograph of the
World Trade Center during 9/11 terrorist attack.
MFAH filed a motion to dismiss the amended
complaint on grounds of fair use. [See Rothenberg,
Dkt. #30] The district court denied the Rule 12(b)(6)
motion as premature, finding that it was preferable to
develop a factual record of the fair use defense for
purpose of summary judgment. [See Rothenberg, Dkt.
#37; accord Browne v. Mcain, 612 F.Supp. 2d 1125,
1130 (C.D. Cal. 2009) (“[G]iven the early stage of this
case, undeveloped factual record, limited factual
allegations in the Complaint, existence of potentially
disputed material facts, and nature of the Court’s
inquiry on a 12(b)(6) motion, the Court declines RNC’s
invitation to undertake the fair use analysis at this
time.”).
Similar to Rothenberg, Marano should be
accorded the opportunity to develop a factual record
on the critical issue of market harm. For example,
Marano may discover information related to the Met’s
policies and practices concerning the licensing and
display of photographic content on the Met’s publicfacing website and at the Museum, invoices showing
the number of photographs that were licensed in
connection with the Play it Loud Exhibition, any

19
internal correspondence relating to the Photograph,
documents showing the number of visitors to the
Met’s Website during the time period in question,
documents showing the number of tickets that were
purchased to the Exhibition through use of the
Website.
Indeed, it is plausible that the same audience
who would be interested in seeing a classic photograph
of Eddie Van Halen in performance would also be
interested in viewing his iconic guitar on physical
display at a museum. At the pleading stage, it is
entirely plausible that fans of Van Halen (the very
same people who would likely be interesting in
viewing Van Halen’s guitar on display on Met) would
also want to license the Photograph for vintage Tshirts or memorabilia. It is also plausible that
competing museums, such as the Rock ‘n Roll Hall of
Fame in Cleveland, would be interesting in licensing
photographs for historical exhibitions. Discovery is
needed to determine what markets actually or
potentially exist for the Photograph and how the Met’s
secondary use impacts those markets.
In the end, Marano is entitled to collect
licensing fees in whatever reasonably expected
potential markets may exist. See Michael Grecco
Prods., Inc. v. Valuewalk, LLC, 345 F. Supp. 3d 482,
508–09 (S.D.N.Y. 2018) (“the inquiry [of the fourth
factor] looks to whether infringement will affect the
potential market for the copyrighted work in
“traditional, reasonable, or likely to be developed
markets.” (emphasis added).

20
At this stage of the proceeding, it is unclear
whether the Met licenses photographic content for use
in its on-line catalogue. If the Met has an ordinary
practice of licensing photographs for use on its
website, then it certainly can be found that a potential
market exists for the Photograph.
POINT V:

THE LOWER COURTS DID NOT
PROPERLY WEIGH THE FOUR
STATUTORY FACTORS

In the wake of the Second Circuit’s ruling in
Cariou, the leading copyright treatise, Nimmer,
warned that the intense focus on the transformative
inquiry threatened to swallow whole the fair use
doctrine. See TCA Television Corp., 839 F.3d at 181
(citing Nimmer § 13.05[B][6], at 13.224.20) (stating
with respect to Cariou: “It would seem that the
pendulum has swung too far in the direction of
recognizing any alteration as transformative, such
that this doctrine now threatens to swallow fair use.
It is respectfully submitted that a correction is needed
in the law.”)
That’s precisely what happened in this case.
The District Court determined that the Met’s use was
transformative per se on grounds of scholarship, and
then quickly dispatched of every other statutory
factor, holding that such factors could not weigh
against fair use because the use was transformative.
The Court of Appeals took a similar approach.
Marano respectfully submits that the Court
should take this opportunity to correct the Second
Circuit’s approach which has permitted the

21
transformative inquiry to swallow the entire fair use
analysis. What is particularly troubling about this
trend is the binary nature of the inquiry, meaning that
a district court declares a secondary use as either
transformative or not transformative – and then all of
the other factors get subsumed into the binary
analysis.
But the Court should recognize that the
transformative inquiry is a matter of degree. District
courts should be required to measure the
transformativeness of a secondary work through a
series of gradations, e.g., not transformative,
minimally (or marginally) transformative, moderately
transformative, or highly transformative, so as to
provide this Court the opportunity to conduct a
meaningful review.
By recognizing the various
gradations, courts will have a better idea of which
uses can be declared transformative as a matter of law
(or not), versus which uses should be reserved for the
fact-finder. See Ferdman v. CBS Interactive Inc., 342
F. Supp. 3d 515, 535 (S.D.N.Y. 2018) (denying
summary judgment on fair use, and stating “[w]hile
the Court concludes that Defendant's use of the
Holland Photograph is somewhat transformative, it is
not so transformative as to entitle Defendant to a fair
use defense as a matter of law.”).

22
CONCLUSION AND RELIEF SOUGHT
Based on the foregoing, Petitioner Lawrence
Marano respectfully submits that the Court should
grant the instant petition.
Respectfully Submitted,
James H. Freeman
LIEBOWITZ LAW FIRM, PLLC
1333A North Ave., Ste. 762
New Rochelle, NY 10804
jf@liebowitzlawfirm.com
(516) 233-1660

Counsel of Record for
Petitioner Lawrence
Marano
Dated: July 1, 2021

APPENDIX

1a
844 Fed.Appx. 436
This case was not selected for
publication in West's Federal Reporter.
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT'S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY
ORDER IN A DOCUMENT FILED WITH THIS
COURT, A PARTY MUST CITE EITHER THE
FEDERAL APPENDIX OR AN ELECTRONIC
DATABASE (WITH THE NOTATION "SUMMARY
ORDER"). A PARTY CITING A SUMMARY ORDER
MUST SERVE A COPY OF IT ON ANY PARTY
NOT REPRESENTED BY COUNSEL.
United States Court of Appeals, Second Circuit.
Lawrence MARANO, Plaintiff-Appellant,
v.
The METROPOLITAN MUSEUM
OF ART, Defendant-Appellee.
20-3104-cv
|
April 2, 2021
Synopsis
Background: Photographer brought action against art
museum alleging that museum infringed his
copyright by featuring his photograph of virtuoso rock
guitarist playing his iconic custom guitar in an
exhibition of rock n’ roll instruments on museum's
website. The United States District

2a
Court for the Southern District of New York, Valerie
E. Caproni, J., 472 F.Supp.3d 76, dismissed and
denied motion for reconsideration, 2020 WL 4735117.
Photographer appealed.
[Holding:] The Court of Appeals held that art
museum's display of photograph in website exhibition
constituted fair use under Copyright Act.
Affirmed.
Procedural Posture(s): On Appeal; Motion to Dismiss
for Failure to State a Claim; Motion for
Reconsideration.
West Headnotes (1)
[1] Copyrights and Intellectual
Property Pictorial, graphic, and sculptural works
Art museum's display of copyrighted photograph of
virtuoso rock guitarist playing his iconic custommade guitar in exhibition of rock n’ roll instruments
on museum's website constituted fair use under
Copyright Act, where exhibition highlighted unique
design of guitar and its significance in development of
rock n’ roll instruments rather than highlighting how
guitarist looked in performance, photograph
appeared with photographs of guitar's physical
composition, which were collectively accompanied by
text about guitar's genesis, specifications, and impact
rather than guitarist's biography or discography,
website was free and publicly available, and there
was no indication that museum's use of photo could
have impaired any other market for commercial use

3a
of photo or diminished its value. 17 U.S.C.A. § 107.
*437 Appeal from a judgment of the United States
District Court for the Southern District of New York
(Valerie E. Caproni, J.).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is AFFIRMED.
Attorneys and Law Firms
For Plaintiff-Appellant: James H. Freeman,
Liebowitz Law Firm, PLLC, Valley Stream, NY.
For Defendant-Appellee: Linda J. Steinman (Abigail
B. Everdell, James E. Doherty, on the brief), Davis
Wright Tremaine LLP, New York, NY.
Present: John M. Walker, Jr., William J. Nardini,
Circuit Judges, John L. Sinatra, Jr. * District Judge.
SUMMARY ORDER
Plaintiff-Appellant Lawrence Marano appeals from
an order dismissing his complaint entered on July 13,
2020, and an order denying his motion for
reconsideration entered on August 14, 2020, in the
United States District Court for the Southern District
of New York (Valerie E. Caproni, J.). In 2019, Marano
brought a copyright action against the Metropolitan
Museum of Art (the “Met”). Marano alleged that the
Met infringed his copyright by featuring a 1982
photograph he took of Eddie Van Halen playing his
“Frankenstein” guitar (the “Photo”) in an exhibition of

4a
rock n’ roll instruments on the Met's website. After
briefing on the fair use exception of the Copyright Act,
17 U.S.C. § 107, the district court dismissed Marano's
complaint for failure to state a claim, finding that
Marano had “failed to show why the Met's use of [the
Photo] is not protected by the fair use exception.” *438
Marano v. Metro. Museum of Art, 472 F. Supp. 3d 76,
80 (S.D.N.Y. 2020), reconsideration denied, No. 19CV-8606, 2020 WL 4735117 (S.D.N.Y. Aug. 14, 2020).
We assume the reader's familiarity with the record.
Marano challenges the district court's determination
that the Met's display of the Photo in its exhibition
constitutes fair use. For the reasons stated below, we
affirm the judgment of the district court.
“Section 107 of the Copyright Act permits the
unauthorized use or reproduction of copyrighted work
if it is ‘for purposes such as criticism, comment, news
reporting, teaching ..., scholarship, or research.’ ” Bill
Graham Archives v. Dorling Kindersley Ltd., 448 F.3d
605, 608 (2d Cir. 2006) (quoting 17 U.S.C. § 107).
Courts properly consider four nonexclusive factors in
“determining whether the use made of a work in any
particular case is a fair use”:
(1) the purpose and character of the use, including
whether such use is of a commercial nature or is for
nonprofit educational purposes;
(2) the nature of the copyrighted work;
(3) the amount and substantiality of the portion used
in relation to the copyrighted work as a whole; and

5a
(4) the effect of the use upon the potential market for
or value of the copyrighted work.
17 U.S.C. § 107. These factors “must be viewed
collectively, with their results ‘weighed together, in
light of the purposes of copyright,’ ” namely, “to
promote progress in science and art.” TCA Television
Corp. v. McCollum, 839 F.3d 168, 178–79 (2d Cir.
2016) (quoting Campbell v. Acuff-Rose Music, Inc.,
510 U.S. 569, 578, 114 S.Ct. 1164, 127 L.Ed.2d 500
(1994)).
“We review de novo a judgment of dismissal under
Fed. R. Civ. P. 12(b)(6), accepting all factual
allegations in the ...complaint and its incorporated
exhibits as true and drawing all reasonable
inferences in [the plaintiff's] favor.” Id. At 177. Fair
use may be “so clearly established by a complaint as
to support dismissal of a copyright infringement
claim.” Id. at 178.
Accepting all factual allegations in the complaint as
true, we conclude that the Met's display of the Photo
in its website exhibition constituted fair use. We
begin with the first factor —often framed as whether
the use is “transformative”—which constitutes the
“heart of the fair use inquiry.” Blanch v. Koons, 467
F.3d 244, 251 (2d Cir. 2006) (quoting Davis v. The
Gap, Inc., 246 F.3d 152, 174 (2d Cir. 2001)). The
Met's exhibition transformed the Photo by
foregrounding the instrument rather than the
performer. Whereas Marano's stated purpose in
creating the Photo was to show “what Van Halen

6a
looks like in performance,” App'x at 29, the Met
exhibition highlights the unique design of the
Frankenstein guitar and its significance in the
development of rock n’ roll instruments. Further, the
Photo appears alongside other photographs showing
the physical composition of the guitar, which are
collectively accompanied by text discussing the
guitar's genesis, specifications, and impact on rock n’
roll music, not Van Halen's biography or discography.
This context “adds something new, with a further
purpose or different character, altering the [Photo]
with new expression, meaning, or message.”
Campbell, 510 U.S. at 579, 114 S.Ct. 1164.
Marano contends that the Met's display of the Photo
is not sufficiently transformative for fair use because
the Met charges admission and provides
entertainment. Yet the Met was founded “for the
purpose of establishing and maintaining in [New
York City] a Museum and library of art,” and it
remains a nonprofit that “collects, studies, conserves,
and presents significant works of art.” App'x 70.
Although the Met charges a nominal fee to out-ofstate visitors who visit the physical museum, the
museum's website—the subject of Marano's *439
copyright claim—is both free and publicly available,
serving to “extend [the Met's] cultural and academic
reach ... by welcoming without charge millions of
virtual visitors every year.” App'x 44, 95. These
purposes are not commercial; to the contrary, they
align the Met's fair use of the Photo with “copyright's
very purpose, ‘[t]o promote the Progress of Science
and useful Arts.’ ” Campbell, 510 U.S. at 578, 114
S.Ct. 1164 (quoting U.S. CONST. art. I, § 8, cl. 8).

7a
This transformative use of the Photo is consistent
with the remaining factors under Section 107 tipping
in favor of fair use. While the Photo is a “creative
work of art,” that determination is of “limited
usefulness” given that the Met is using the Photo “for
a transformative purpose.” Bill Graham, 448 F.3d at
612. Similarly, the Met's “copying the entirety of [the
Photo] [was] ... necessary to make a fair use of the
image” as one of many “historical artifacts” in the
exhibition. Id. at 613. Likewise, a “transformative
market” does not qualify as a “traditional, reasonable,
or likely to be developed market,” id. at 614 (quoting
Am. Geophysical Union v. Texaco Inc., 60 F.3d 913,
930 (2d Cir. 1994)), and therefore Marano cannot
“prevent others from entering fair use markets
merely ‘by developing or licensing a market for ...
transformative uses of [his] own creative work,’ ” id.
at 615 (quoting Castle Rock Ent., Inc. v. Carol Pub.
Grp., Inc., 150 F.3d 132, 146 n.11 (2d Cir. 1998)).
There is no indication in the record that the Met's use
of the Photo on a web page describing the
Frankenstein guitar could, in any way, impair any
other market for commercial use of the Photo, or
diminish its value. On balance, these factors indicate
that the Met's display of the Photo qualifies for the
fair use exception under Section 107.
Marano protests that this holding would extinguish
copyright protections for photographers because
museums displaying copyrighted photographs will
always be able to assert a fair use defense by
claiming a scholarly, transformative purpose behind
the exhibition. But it has long been established that
“the determination of fair use is an open-ended and

8a
contextsensitive inquiry.” Blanch, 467 F.3d at 251.
Here, the district court appropriately conducted a
fair-use analysis that was “deeply case-specific,” such
that “[a] different use by a museum or art exhibition
and combination of factors could have tipped the
scales in the other direction.” Marano, 2020 WL
4735117, at *1. Such individualized analysis is
precisely what Section 107 requires, and we discern
no error in the district court's conclusion that the fair
use exception applies to the Met's display of the
Photo.
***
We have considered Marano's remaining arguments
and find them to be without merit. Accordingly, we
AFFIRM the judgment of the district court.
All Citations
844 Fed.Appx. 436
Footnotes
* Judge John L. Sinatra, Jr., of the United States District Court
for the Western District of New York, sitting by designation.

9a
472 F.Supp.3d 76
United States District Court, S.D. New York.
Lawrence MARANO, Plaintiff,
v.
The METROPOLITAN
MUSEUM OF ART, Defendant.
19-CV-8606 (VEC)
|
Signed 07/13/2020
Synopsis
Background: Photographer brought suit against
museum for willful copyright infringement. The
District Court ordered photographer to show cause
why the action should not be dismissed under fair use
exception of the Copyright Act.
Holdings: The District Court, Valerie E. Caproni, J.,
held that:
[1] museum's secondary use of photographer's
copyrighted photograph was transformative,
[2] creative nature of photograph weighed minimally,
if at all, against finding that museum's secondary use
constituted fair use;
[3] museum's secondary use of photographer's
copyrighted photograph of musician was limited and
focused on historical nature of photograph; and
[4] it was unlikely that museum's secondary use of
photographer's copyrighted photograph of musician

10a
affected markets for photograph's original expressive
purpose.
Complaint dismissed.
Procedural Posture(s): Other.
West Headnotes (28)
[1] Federal Civil Procedure Insufficiency in General
To survive a motion to dismiss, a complaint does not
need to contain detailed or elaborate factual
allegations, but only allegations sufficient to raise an
entitlement to relief above the speculative level. Fed.
R. Civ. P. 12(b)(6).
[2] Federal Civil Procedure Matters deemed
admitted; acceptance as true of allegations in
complaint
On a motion to dismiss, the District Court is not
bound to accept as true a legal conclusion couched as
a factual allegation. Fed. R. Civ. P. 12(b)(6).
[3] Federal Civil Procedure Matters considered in
general
On a motion to dismiss, the District Court may
consider facts stated on the face of the complaint,
documents appended to the complaint or incorporated
in the complaint by reference, and matters of which
judicial notice may be taken. Fed. R. Civ. P. 12(b)(6).

11a
[4] Copyrights and Intellectual Property Fair use and
other permitted uses
in general
The fair use doctrine is a statutory exception to
copyright infringement. 17 U.S.C.A. § 107.
[5] Copyrights and Intellectual Property Fair use and
other permitted uses in general
Although a court must weigh all four factors when
determining whether use of a copyrighted material is
fair use, the first, in particular a use's
transformativeness, is most important and has a
significant impact on the remainder of the fair use
inquiry. 17 U.S.C.A. § 107.
[6] Copyrights and Intellectual Property Trial
Fair use is a mixed question of fact and law,
necessitating an open-ended and contextsensitive
inquiry. 17 U.S.C.A. § 107.
[7] Copyrights and Intellectual Property Pleading
Copyrights and Intellectual Property Judgment
Courts generally wait until the summary judgment
phase to address whether use of a copyrighted
material constitutes fair use, but dismissal of a
copyright infringement claim is warranted where fair
use is clearly established on the face of the complaint.
17 U.S.C.A. § 107.

12a
[8] Copyrights and Intellectual Property Pleading
Cases in which transformative use of a copyrighted
material can be determined by doing a side-by-side
comparison of the original work and the secondary
use are particularly appropriate for disposition on a
motion to dismiss for failure to state a claim upon
which relief can be granted. 17 U.S.C.A. § 107; Fed.
R. Civ. P. 12(b)(6).
[9] Copyrights and Intellectual Property Trial
A court may conclude as a matter of law that the
challenged use does not qualify as a fair use of the
copyrighted work.
[10] Copyrights and Intellectual Property Fair use
and other permitted uses
in general
The heart of the fair use inquiry is the purpose and
character of the use.
[11] Copyrights and Intellectual Property Fair use
and other permitted uses
in general
In an action for copyright infringement, the more
transformative the new work, the less will be the
significance of other factors, like commercialism, that
may weigh against a finding of fair use. 17 U.S.C.A. §
107.

13a
[12] Copyrights and Intellectual Property Fair use
and other permitted uses in general
The fair use doctrine allows for transformative works
that further the public discourse and the free
exchange of ideas in order to promote science and the
arts. 17 U.S.C.A. § 107.
[13] Copyrights and Intellectual Property Fair use
and other permitted uses in general
To determine whether the secondary use of a
copyrighted material is transformative, for the
purposes of a fair use inquiry, the question is whether
the new work merely supersedes the objects of the
original creation, or instead adds something new,
with a further purpose or different character, altering
the first with new expression, meaning, or message.
17 U.S.C.A. § 107.
[14] Copyrights and Intellectual Property Fair use
and other permitted uses in general
A secondary use of a copyrighted material can be
transformative in function or purpose even without
altering or actually adding to the original work. 17
U.S.C.A. § 107.
[15] Copyrights and Intellectual Property Fair use
and other permitted uses in general
Courts have frequently afforded fair use protection to
the use of copyrighted material in biographies,
recognizing such works as forms of historic
scholarship, criticism, and comment that require

14a
incorporation of original source material for optimum
treatment of their subjects. 17 U.S.C.A. § 107.
[16] Copyrights and Intellectual Property Pictorial,
graphic, and sculptural Works
Museum's secondary use of photographer's
copyrighted photograph was transformative, and thus
weighed in favor of museum's use of photograph as
constituting fair use; photographer used photograph
to highlight musician in photograph, while museum
used photograph to highlight musician's guitar,
museum used photograph as historical artifact and
recognizable representation of guitar in action,
museum used photograph in scholarly context to help
illustrate historical and artistic significance of guitar,
photograph was inconsequential portion of museum's
online catalogue as it was single image surrounded by
pages of navigable content, and photograph was
almost afterthought on guitar's page as primary focus
was historical and descriptive text and photographs
of guitar. 17 U.S.C.A. § 107.
[17] Copyrights and Intellectual Property Fair use
and other permitted uses in general
When determining whether secondary use of a
copyrighted material constitutes fair use, the
commercial/nonprofit dichotomy concerns the
unfairness that arises when a secondary user makes
unauthorized use of copyrighted material to capture
significant revenues as a direct consequence of
copying the original work. 17 U.S.C.A. § 107(1).

15a
[18] Copyrights and Intellectual Property Pictorial,
graphic, and sculptural Works
Fact that museum's secondary use of photographer's
copyrighted photograph of musician could have been
commercial in nature did not weigh much in favor of
finding that use was not fair use, where photographer
only complained of use of photograph in free online
catalogue, and transformative nature of use
outweighed any alleged commercial use. 17 U.S.C.A.
§ 107(1).
[19] Copyrights and Intellectual Property Fair use
and other permitted uses in general
The second factor in the four factor fair use test
considers (1) whether the copyrighted work is
expressive or creative, with a greater leeway being
allowed to a claim of fair use where the work is factual
or informational, and (2) whether the work is
published or unpublished, with the scope for fair use
involving unpublished works being considerably
narrower. 17 U.S.C.A. § 107.
[20] Copyrights and Intellectual Property Pictorial,
graphic, and sculptural Works
Although photographer's copyrighted photograph of
musician was indisputably creative and published,
creative nature of photograph weighed minimally, if
at all, against finding that museum's secondary use
constituted fair use, where transformative purpose of
museum's use of photograph was to emphasize
photograph's historical rather than creative value. 17
U.S.C.A. § 107.

16a
[21] Copyrights and Intellectual Property Fair use
and other permitted uses in general
The third factor in the four factor fair use test asks
whether the quantity and value of the materials used
are reasonable in relation to the purpose of the
copying. 17 U.S.C.A. § 107.
[22] Copyrights and Intellectual Property Fair use
and other permitted uses in general
The third-factor inquiry in the fair use test must take
into account that the extent of permissible copying
varies with the purpose and character of the use. 17
U.S.C.A. § 107.
[23] Copyrights and Intellectual Property Pictorial,
graphic, and sculptural Works
Museum's secondary use of photographer's
copyrighted photograph of musician was limited and
focused on historical nature of photograph, and thus
weighed in favor of finding that museum's use of
photograph constituted fair use; although photograph
was displayed in its entirety, museum used
photograph as historical artifact providing visual
context for exhibition regarding musician's guitar and
accompanying factual information about guitar and it
was reasonable for museum to include full picture of
musician playing guitar, and museum reduced size of
photograph and mixed it with text and other
photographs, limiting visual impact of photograph's
artistic expression. 17 U.S.C.A. § 107.

17a
[24] Copyrights and Intellectual Property Fair use
and other permitted uses in general
The fourth factor in the four factor fair use test,
concerning the effect of the use upon the potential
market for or value of the copyrighted work, is
concerned with whether the secondary use usurps the
market of the original work. 17 U.S.C.A. § 107.
[25] Copyrights and Intellectual Property Fair use
and other permitted uses in general
The fourth factor in the four factor fair use test
focuses on whether the copy brings to the marketplace
a competing substitute for the original, or its
derivative, so as to deprive the rights holder of
significant revenues because of the likelihood that
potential purchasers may opt to acquire the copy in
preference to the original. 17 U.S.C.A. § 107(4).
[26] Copyrights and Intellectual Property Fair use
and other permitted uses in general
As with the other factors, the fourth factor if the fair
use test is influenced by the resolution of the
transformativeness inquiry because the more
transformative the secondary use, the less likelihood
that the secondary use substitutes for the original. 17
U.S.C.A. § 107.
[27] Copyrights and Intellectual Property Pictorial,
graphic, and sculptural Works
It was unlikely that museum's secondary use of
photographer's copyrighted photograph of musician

18a
affected markets for photograph's original expressive
purpose, and thus weighed in favor of finding that
museum's use of photograph constituted fair use;
although photographer argued that museum was
potential market for his work because of shift toward
more modern, pop-culture centered exhibits,
traditional market for photograph would have been
collectors of photographs of rock legends or other
persons seeking to showcase musician's band, market
might have extended to museums exhibiting
musicians, and museum's use of photograph fell into
different transformative market. 17 U.S.C.A. § 107.
[28] Copyrights and Intellectual Property Fair use
and other permitted uses in general
A plaintiff in a copyright infringement case cannot
prevent others from entering fair use markets merely
by developing or licensing a market for
transformative uses of his own creative work. 17
U.S.C.A. § 107.
Attorneys and Law Firms
*80 Richard Liebowitz, Liebowitz Law Firm, PLLC,
Valleystream, NY, for Plaintiff.
James E. Doherty, Linda Jane Steinman, Davis
Wright Tremaine LLP, New York, NY, for Defendant.

19a
OPINION AND ORDER
VALERIE CAPRONI, United States District Judge:
Plaintiff Lawrence Marano (“Marano” or “Plaintiff”)
sued the Metropolitan Museum of Art (“Met” or
“Defendant”) for willful copyright infringement under
Sections 106 and 501 of the Copyright Act, 17 U.S.C.
§§ 106, 501. Compl. (Dkt. 1) ¶¶ 13–15. The Court
ordered Plaintiff to show cause why this case should
not be dismissed under the fair use exception of the
Copyright Act, 17 U.S.C. § 107. (Dkt. 5). As detailed
below, because Plaintiff has failed to show why the
Met's use of his photograph (the “Photo”) is not
protected by the fair use exception, the case is
DISMISSED.
BACKGROUND 1
Plaintiff is a Florida-based professional photographer
who owns the copyright to the Photo, a photograph of
Eddie Van Halen (“Van Halen”) performing at a
concert. Compl. ¶¶ 5, 7–8; Compl., Ex. A (Dkt. 1-1).
The Met is a nonprofit museum that “collects, studies,
conserves, and presents significant works of art
across all times and cultures in order to connect
people to creativity, knowledge, and ideas.” Steinman
Decl., Ex. A (Dkt. 15-1); see Corporate Disclosure
Statement (Dkt. 11). 2 Plaintiff alleges that the Met
infringed his copyright by posting the Photo to the
museum's website. 3 Compl. ¶¶ 10, 13; *81 Compl.,
Ex. B (Dkt. 1-2).
The Met included the Photo in its online catalogue for
the “Play It Loud: Instruments of Rock & Roll”
exhibition, 4 which “examine[d] the instruments of

20a
rock and roll” from “[o]ne of the most important
artistic movements of the twentieth century.”
Steinman Decl., Ex. B (Dkt. 15-2). The online
catalogue corresponds to the physical exhibition
previously displayed in a gallery at the museum and
is freely accessible. Id. To browse the online catalogue,
visitors start on a landing page and from there can
proceed to three main sub-pages—“Exhibition
Overview,” “Exhibition Galleries,” and “Exhibition
Objects”—that provide interpretive text, photographs,
and multimedia presentations about the instruments
that were in the exhibition. Id.
To reach Plaintiff's copyrighted Photo, a visitor must
first navigate to “Exhibition Objects,” which lists as
thumbnails the 185 objects that were on physical
display in the museum as part of the “Play It Loud”
exhibition. Steinman Decl., Ex. D (Dkt. 15-4). Visitors
must then click on the “Frankenstein” guitar
thumbnail—the guitar designed and assembled by
Van Halen. The following page displays two
paragraphs on the left side with historical and
technical information about the guitar. 5 Compl., Ex.
B; Steinman Decl., Ex. E (Dkt. 15-5). To the right of
that text there is a large photograph of the guitar and
three smaller thumbnail photographs beneath it.
The third thumbnail photograph is the copyrighted
Photo; 6 the other two are photographs of the
“Frankenstein” guitar on display in the gallery.
Visitors can view a larger version of any of the three
photographs by clicking on it. Beneath the historical
text and the photos, the page includes another section
of text devoted to “Object Details”; that section
provides basic information about the guitar, including,

21a

inter alia, the materials it was made of and its
dimensions.
On September 16, 2019, Plaintiff filed his Complaint,
and on September 18, 2019, the Court ordered him to
show cause why this action should not be dismissed
under the fair use exception of the Copyright Act, 17
U.S.C. § 107. Both parties have submitted responsive
briefs to the Court's order. Pl. Resp. (Dkt. 9); Def.
Reply (Dkt. 14); Pl. Sur-Reply (Dkt. 16).
DISCUSSION
Section 106 of the Copyright Act grants copyright
holders certain exclusive rights over their original
works, including the right “to reproduce the
copyrighted work in copies or phonorecords” and the
right “to display the copyrighted work publicly.” *82
17 U.S.C. § 106. Assuming for the sake of argument
that Plaintiff possesses the copyright and that the
Met's copying of the Photo was unauthorized, the sole
issue before the Court is whether the fair use doctrine
warrants dismissal of the Complaint.
I. Standard of Review
[1] [2] [3] Because this action is still in the pleadings
stage, and because the parties’ submissions are
limited to the four corners of the Complaint and
incorporated materials, the Court will apply the
standards applicable to a Rule 12(b)(6) motion to
dismiss. To survive a motion to dismiss, “a complaint
must allege sufficient facts, taken as true, to state a
plausible claim for relief.” Johnson v. Priceline.com,
Inc., 711 F.3d 271, 275 (2d Cir. 2013) (citing Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 555–56, 127 S.Ct.

22a
1955, 167 L.Ed.2d 929 (2007)). “[A] complaint does not
need to contain detailed or elaborate factual
allegations, but only allegations sufficient to raise an
entitlement to relief above the speculative level.”
Keiler v. Harlequin Enters. Ltd., 751 F.3d 64, 70 (2d
Cir. 2014). The Court accepts all factual allegations in
the complaint as true and draws all reasonable
inferences in the light most favorable to the plaintiff.
Gibbons v. Malone, 703 F.3d 595, 599 (2d Cir. 2013).
The Court is not, however, “bound to accept as true a
legal conclusion couched as a factual allegation.”
Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S.Ct. 1937,
173 L.Ed.2d 868 (2009) (quoting Twombly, 550 U.S.
at 555, 127 S.Ct. 1955). The Court may also consider
“facts stated on the face of the complaint, ...
documents appended to the complaint or incorporated
in the complaint by reference, and ... matters of which
judicial notice may be taken.” Graham v. Prince, 265
F. Supp. 3d 366, 376 (S.D.N.Y. 2017) (quotation
omitted); see also supra note 1.
II. Fair Use Analysis
[4] [5] The fair use doctrine is a statutory exception to
copyright infringement. Bill Graham Archives v.
Dorling Kindersley Ltd., 448 F.3d 605, 608 (2d Cir.
2006). As codified in the Copyright Act, “the fair use
of a copyrighted work ... for purposes such as criticism,
comment, news reporting, teaching ..., scholarship, or
research, is not an infringement of copyright.” 17
U.S.C. § 107. To determine whether a particular use
is fair use, courts engage in a case-by-case evaluation
using four statutory factors in light of the purposes of
copyright. Bill Graham, 448 F.3d at 608. The factors
to be considered include—

23a
(1) the purpose and character of the use, including
whether such use is of a commercial nature or is for
nonprofit educational purposes;
(2)

the

nature

of

the

copyrighted

work;

(3) the amount and substantiality of the portion used
in relation to the copyrighted work as a whole; and
(4) the effect of the use upon the potential market for
or value of the copyrighted work.
17 U.S.C. § 107. Although a court must weigh all the
factors,
the
first—in
particular
a
use's
“transformativeness”—is most important and “has a
significant impact on the remainder of the fair use
inquiry.” Prince, 265 F. Supp. 3d at 380.
[6] [7] [8] [9] Fair use is a “mixed question of fact and
law,” necessitating “an open-ended and contextsensitive inquiry.” Id. at 376 (quotation omitted). For
that reason, courts generally wait until the summary
judgement phase to address fair use, id. at 377, but
dismissal of a copyright infringement claim is
warranted where fair use is clearly established on the
face of the complaint, TCA Television Corp. v.
McCollum, 839 F.3d 168, 178 (2d Cir. 2016). In this
case, Plaintiff does not object to addressing fair use at
this stage of the proceedings. *83 7 Even if he did,
cases in which transformativeness can be determined
by doing a sideby-side comparison of the original work
and the secondary use are particularly appropriate for
disposition on a Rule 12(b)(6) motion. 8 Prince, 265 F.
Supp. 3d at 377 (describing transformativeness as
whether “the allegedly offending use of the original

24a
work” alters the first work “with new expression,
meaning, or message”).
A. Purpose and Character of the Use
[10] [11] The heart of the fair use inquiry is the
purpose and character of the use. Blanch v. Koons,
467 F.3d 244, 251 (2d Cir. 2006). It includes two
considerations: the transformative nature of the work,
see Bill Graham, 448 F.3d at 608; and whether the
“use is of a commercial nature or is for nonprofit
educational purposes,” 17 U.S.C. § 107(1).
“The more transformative the new work, the less will
be the significance of other factors, like
commercialism, that may weigh against a finding of
fair use.” Campbell v. Acuff-Rose Music, Inc., 510 U.S.
569, 569, 114 S.Ct. 1164, 127 L.Ed.2d 500 (1994).
1. Transformative Use
[12] [13] [14] [15] The fair use doctrine “allows for
transformative works that further the public
discourse and the free exchange of ideas in order to
promote science and the arts.” Baraban v. Time
Warner, Inc., No. 99-CV-1569, 2000 WL 358375, at *2
(S.D.N.Y. Apr. 6, 2000). To determine whether the
secondary use is transformative, the “question is
whether the new work merely supersedes the objects
of the original creation, or instead adds something
new, with a further purpose or different character,
altering the first with new expression, meaning, or
message.” Bill Graham, 448 F.3d at 608 (quotation
omitted); see Authors Guild v. Google, Inc., 804 F.3d
202, 214 (2d Cir. 2015) (“[A] transformative use is one

25a
that communicates something new and different from
the original or expands its utility, thus serving
copyright's overall objective of contributing to public
knowledge.”). A secondary use “can be transformative
in function or purpose [even] without altering or
actually adding to the original work.” Swatch Grp.
Mgmt. Servs. Ltd. v. Bloomberg L.P., 756 F.3d 73, 84
(2d Cir. 2014) (quotation omitted). Moreover, “courts
have frequently afforded fair use protection to the use
of copyrighted material in biographies, recognizing
such works as forms of historic scholarship, criticism,
and comment that require incorporation of original
source material for optimum treatment of their
subjects.”

Bill Graham, 448 F.3d at 609 (citing 17 U.S.C. § 107).
The Second Circuit's decision in Bill Graham all but
decides this case. The defendant in that case
published a coffee table book about the Grateful Dead
that contained unlicensed images of concert *84
posters as part of a timeline of the band's history. Id.
at 607. The timeline runs continuously throughout
the book, chronologically combining approximately
2000 images representing the band's history with
explanatory text; among the images were seven
copyrighted concert posters displayed in reduced form
with captions describing the concerts that were
associated with the posters. Id.
The Second Circuit held that inclusion of these
posters for an historical purpose constituted fair use.
Id. The Court first emphasized that the defendant's
“purpose in using the copyrighted images at issue in
its biography of the Grateful Dead is plainly different

26a
from the original purpose for which they were created,”
because the posters “fulfilled the dual purposes of
artistic expression and promotion,” whereas the
defendant used the “images as historical artifacts to
document and represent the actual occurrence of the
Grateful Dead concert events.” Id. at 609. The Court
next considered how the images were used for
scholarship, noting that no “less a recognition of
biographical value is warranted in this case simply
because the subject made a mark in pop culture
rather than some other area of human endeavor.”

Id. Finally, the Court found that the matter in which

the images were displayed in the book strengthened
the transformative nature of the use. Id. at 611. The
book reproduced the posters in a reduced size, in
combination with textual material and graphical
artwork, and the posters represented an
“inconsequential portion” of the book. Id.
[16] The Met's use of the Photo is analogous on all
three dimensions. First, Plaintiff and the Met used
the Photo for entirely different purposes. Plaintiff
asserts that he created the Photo to show “what Van
Halen looks like in Performance” and that “the
original meaning” behind the Photo was to “convey
the message that Van Halen is a groundbreaking and
unorthodox musician.” Pl. Resp. at 5 (emphasis
added). In contrast, the Met spotlights the
“Frankenstein” guitar—using the Photo to reference
and contextualize the exhibition object, which Van
Halen pieced together himself “to achieve the
ultimate guitar for tone, playability, dependability,
and functionality.” Compl., Ex. B; Steinman Decl., Ex.
E. Just as the defendant in Bill Graham used the

27a
concert poster “as a recognizable representation of the
[Grateful Dead] concert,” 448 F.3d at 610 n.4, the Met
used Plaintiff's Photo as an historical artifact and a
“recognizable representation” of the “Frankenstein”
guitar in action, Compl., Ex. B; Steinman Decl., Ex.
E.9
Second, the Met used Plaintiff's Photo in a scholarly
context. Considering that the “instruments used in
rock and roll had a profound impact on this art form
that forever changed music,” the “Frankenstein”
guitar is historically significant within the world of
hard rock music. Steinman Decl., Ex. B. As with
images in biographical books, museum exhibitions
often incorporate other source material for “optimum
treatment of their subjects.” Bill Graham, 448 F.3d at
609. Plaintiff's Photo is displayed *85 on the
biographical page for the exhibition object—the very
instrument depicted in the Photo —in order to
“document and represent the [use of the guitar],” id.
at 610, that “spawned legions of copies ... and inspired
generations of fans to design their own instruments,”
Compl., Ex. B; Steinman Decl., Ex. E.
Plaintiff argues that the Met's use is not
transformative because the exhibition does not
critique the artistic merits of the Photo itself but
“merely use[s] [it] as an illustrative aid to depict the
subjects featured” in the Photo. Pl. Resp. at 3–4
(quotation omitted). His argument misunderstands
the nature of the inquiry. What is relevant is not
whether the exhibition comments on the Photo per se,
such as the photographer's choice of lighting or focus,
but whether it uses the Photo to help illustrate the
historical and artistic significance of the guitar—a

28a
separate and distinct purpose from the Photo's
original expressive purpose. In Bill Graham, the
Second Circuit directly rejected the idea that the
secondary use was required to comment on the
artistic value of the work when it found that
“enhancing [ ] biographical information” was a
sufficient transformative purpose. 448 F.3d at 610–11.
Third, the Photo constitutes an “inconsequential
portion” of the Met's online catalogue. Plaintiff's
Photo is a single image surrounded by pages of
navigable textual, visual, and audio content.
Steinman Decl., Exs. B, C, and D. The Photo is located
several page-clicks within the actual catalogue of 185
object pages. Steinman Decl., Ex. D. And even on the
“Frankenstein” guitar's page—the primary focus of
which is historical and descriptive text and
photographs of the guitar—the Photo is almost an
afterthought. Compl., Ex. B; Steinman Decl., Ex. E.
In short, the online catalogue's layout is designed to
enrich and elaborate the guitar's historical
significance, primarily utilizing other photographs
and text to do so. See Bill Graham, 448 F.3d at 611
(finding further support for fair use where the
defendant “minimized the expressive value of the
reproduced images by combining them with a
prominent timeline, textual material, and original
graphical artwork” and where “the images appear on
only seven pages” of the 480-page book).
2. Commercial Nature
[17] In evaluating the purpose and character of the
use, the Court must also consider “whether such use
is of a commercial nature or is for nonprofit

29a
educational purposes.” 17 U.S.C. § 107(1). “The
commercial/nonprofit dichotomy concerns the
unfairness that arises when a secondary user makes
unauthorized use of copyrighted material to capture
significant revenues as a direct consequence of
copying the original work.” Am. Geophysical Union v.
Texaco Inc., 60 F.3d 913, 922 (2d Cir. 1994). But
“because ‘nearly all’ fair uses of copyrighted works are
conducted for profit, the Second Circuit has cautioned
that ‘the more transformative the new work, the less
will be the significance’ of the commercial sub-factor.”
Prince, 265 F. Supp. 3d at 382 (alteration omitted)
(quoting Cariou v. Prince, 714 F.3d 694, 708 (2d Cir.
2013)).
[18] Plaintiff argues that because the Met charges a
general admission fee to out-of-town visitors to the
museum, it is a commercial enterprise and therefore
the use at issue is commercial, notwithstanding the
Met's status as a nonprofit organization. 10 Pl. SurReply at 2–3; see Def. Reply *86 at 11. While discovery
might be helpful in providing additional information
about the Met's revenue structure or how profitable
this particular exhibition was, the relevant issue is
not the Met's business model but whether the use at
issue is commercial in nature. Even in the unlikely
event that discovery would reveal that Plaintiff's
Photo drove viewers to visit the Met's galleries and
pay admission fees, the Court would not place much
significance on that fact due to the transformative
nature of the secondary use.
In short, the first factor strongly favors a finding of
fair use.

30a
B. Nature of the Copyrighted Work
[19] The second fair use factor considers “(1) whether
the work is expressive or creative, ... with a greater
leeway being allowed to a claim of fair use where the
work is factual or informational, and (2) whether the
work is published or unpublished, with the scope for
fair use involving unpublished works being
considerably narrower.” Cariou, 714 F.3d at 709–10
(quotation omitted).
[20] The Photo is indisputably creative and published.

See Monster Commc'ns, Inc. v. Turner Broad. Sys.,
Inc., 935 F. Supp. 490, 494 (S.D.N.Y. 1996)

(“[P]hotographic images of actual people, places and
events may be as creative and deserving of protection
as purely fanciful creations.”). While ordinarily the
creative nature of the Photo would weigh in favor of
the copyright holder, the second factor has limited
weight in this analysis because the transformative
purpose of the Met's use “was to emphasize the
[Photo's] historical rather than creative value.” Bill
Graham, 448 F.3d at 612–13; see Blanch, 467 F.3d at
257 (“[T]he second factor may be of limited usefulness
where the creative work of art is being used for a
transformative purpose.” (quotation omitted)); see

also

Authors Guild, 804 F.3d at 220 (“The second factor
has rarely played a significant role
determination of a fair use dispute.”).

in

the

The second fair use factor weighs minimally, if at all,
against a finding of fair use.

31a
C. Amount and Substantiality of the Portion Used
[21] [22] The third fair use factor asks whether “the
quantity and value of the materials used[ ] are
reasonable in relation to the purpose of the copying.”
Campbell, 510 U.S. at 586, 114 S.Ct. 1164 (quotation
omitted). Although the Second Circuit has never
“ruled that the copying of an entire work favors fair
use,” “such copying does not necessarily weigh against
fair use because copying the entirety of a work is
sometimes necessary to make a fair use of the image.”

Bill Graham, 448 F.3d at 613. Thus, “the third-factor
inquiry must take into account that ‘the extent of
permissible copying varies with the purpose and
character of the use.’ ”

Id. (quoting Campbell, 510 U.S. at 586–87, 114 S.Ct.
1164).

[23] While the Photo is displayed in its entirely, such

use is reasonable in light of the purpose and character
of the use. The Met uses the Photo as an historical
artifact providing visual context for the exhibition
object and the accompanying factual information
about the object. Compl., Ex. B; Steinman Decl., Ex.
E. In order to achieve this purpose, it is reasonable
that the Met included the full picture of Van Halen
playing the “Frankenstein” guitar. Cf. *87 Kelly v.

Arriba Soft Corp., 336 F.3d 811, 821 (9th Cir. 2003)

(“If Arriba only copied part of the image, it would be
more difficult to identify it, thereby reducing the
usefulness of the visual search engine.”). Moreover,
the Met reduced the size of the Photo and mixed it
with text and other photographs, limiting the visual
impact of the Photo's artistic expression. See Bill

32a

Graham, 448 F.3d at 613 (“We conclude that such use

by [the defendant] is tailored to further its
transformative purpose because [defendant's]
reduced size reproductions of [the plaintiff's] images
in their entirety displayed the minimal image size
and quality necessary to ensure the reader's
recognition of the images as historical artifacts of
Grateful Dead concert events.”).
In this case, the secondary use was limited and
focused on the historical nature of the Photo; the third
factor thus does not weigh against a finding of fair use.
D. Effect of the Use Upon the Market for or Value of
the Original
[24] [25] [26] The final fair use factor is “the effect of
the use upon the potential market for or value of the
copyrighted work.” 17 U.S.C. § 107(4). This analysis
is concerned with “whether the secondary use usurps
the market of the original work.” Blanch, 467 F.3d at
258 (emphasis added) (quotation omitted). It “focuses
on whether the copy brings to the marketplace a
competing substitute for the original, or its derivative,
so as to deprive the rights holder of significant
revenues because of the likelihood that potential
purchasers may opt to acquire the copy in preference
to the original.” Authors Guild, 804 F.3d at 223. As
with the other factors, “this factor is also influenced
by the resolution of the transformativeness inquiry”
because “the more transformative the secondary use,
the less likelihood that the secondary use substitutes
for the original.” Prince, 265 F. Supp. 3d at 384
(quotation omitted).

33a
The Second Circuit has made clear that a
“transformative market” does not qualify as a
“traditional market.” See Bill Graham, 448 F.3d at
615 (holding that because the defendant's use of the
copyrighted images as historical artifacts “falls within
a transformative market, [the plaintiff] does not
suffer market harm due to the loss of license fees”).
And with respect to the “traditional market,” a court
must “look at the impact on potential licensing
revenues for traditional, reasonable, or likely to be
developed markets,” not, simply, that the defendant
failed to pay a licensing fee.

Id. at 614 (quotation omitted).
[27] [28] Plaintiff argues that museums are a
potential market for his work because they are
shifting towards more modern, pop-culture centered
exhibits. Pl. Sur-Reply at 6–7. He requests discovery
to establish whether that market is “likely to be [a]
developed market.” Id. at 7. But Plaintiff “cannot
prevent others from entering fair use markets merely
by developing or licensing a market [for]
transformative uses of [his] own creative work.” Bill
Graham, 448 F.3d at 615 (quotation omitted). A
traditional market for the Photo would be collectors of
photographs of rock legends or other persons seeking
to showcase Van Halen. Being generous, that market
might even extend to museums exhibiting musicians.
But the Met's use of the Photo to visualize the
“Frankenstein” guitar as played by Van Halen falls
into a different, transformative market. It is thus
unlikely that markets for the Photo's original
expressive purpose would be affected in any way. In
any event, Plaintiff has offered only conclusory

34a
assertions that the Met's use has caused “a
meaningful or significant effect upon the potential
market for the copyrighted work.” Authors Guild, 804
F.3d at 224 (quotation omitted).
*88 Accordingly, the fourth fair use factor weighs in
favor of a finding of fair use.
E. Balance of Factors
The Court finds that the balance of the fair use factors
strongly favors the Met's use. The first and most
important factor weighs heavily towards a finding of
fair use and significantly colors the other three factors.
The Met's use of the Photo to present the
“Frankenstein” guitar as an historical artifact is
transformatively different from the original
expressive purpose of the Photo. The second factor,
which might otherwise favor Plaintiff, therefore, has
limited weight. Similarly, although Plaintiff's Photo
was copied in its entirety, the third factor does not
weigh against fair use because the amount of the
Photo used is reasonable in light of the
transformative purpose for which the Photo was used.
Finally, Plaintiff's appeal to missed revenue in the
“museums” market holds no sway and, in fact, favors
a fair use finding.
CONCLUSION
For the foregoing reasons, the Court concludes that
the Met's use of Plaintiff's copyrighted Photo in its
online catalogue is fair use. Accordingly, Plaintiff's
Complaint is DISMISSED. The Clerk of Court is
respectfully directed to close this case.

35a
SO ORDERED.
All Citations
472 F.Supp.3d 76, 2020 Copr.L.Dec. P 31,679

Footnotes
1

The facts are based on the allegations contained in
the Complaint, materials attached to the
Complaint, and the Met's “Play It Loud” online
exhibition
(see
https://www.metmuseum.org/
exhibitions/listings/2019/play-it-loud). The Court
accepts all well-pled, non-conclusory factual
allegations in the pleadings as true and draws all
reasonable inferences in the light most favorable to
Plaintiff. Gibbons v. Malone, 703 F.3d 595, 599 (2d
Cir. 2013). The Court considers the Met's online
exhibition in toto because the Complaint references
it repeatedlyand provides screenshots from it, it is
critical to Plaintiff's allegations, and neither party
contests the website's accuracy. See Compl. ¶¶ 6,
10–11, 13; Compl., Ex. B (Dkt. 1-2); Chambers v.
Time Warner, Inc., 282 F.3d 147, 152 (2d Cir. 2002)
(“[A complaint] is deemed to include any written
instrument attached to it as an exhibit or any
statements or documents incorporated in it by
reference. Even where a document is not
incorporated by reference, the court may
nevertheless consider it where the complaint relies
heavily upon itsterms and effect, which renders the
document integral to the complaint.” (quotations
omitted)); Stephens v. Trump Org. LLC, 205 F.
Supp. 3d 305, 310 n.7 (E.D.N.Y. 2016) (taking
judicial notice of “the website hosted at
‘trumpestates.com’ ” where screenshots of the
website's contents were submitted to the court
“without any party raising any dispute as to the
website's authenticity”). The Court refers to excerpts

36a
of the online exhibitionattached to the declaration of
Linda Steinman dated October 23, 2019 (“Steinman
Decl.”) (Dkt. 15).
2

The Court takes judicial notice of Defendant's
Corporate Disclosure Statement, which certifies that
“DefendantTHE METROPOLITAN MUSEUM OF
ART is a 501(c)(3) organization with no corporate
parents or publicly held shares.” See Garcia v.
Salvation Army, 918 F.3d 997, 1002 n.9 (9th Cir.
2019) (taking judicial noticeof the Salvation Army's
nonprofit status).

3

In his response to the Court's Order to Show Cause,
Plaintiff asserts that the Met used the Photo in the
brickand mortar museum as well as in the online
catalogue for the exhibition. Pl. Resp. (Dkt. 9) at 1.
That might be true, but the Complaint includes no
allegations regarding use of the Photo at the Met; it
complains only of use of the Photo as part of the
online catalogue. That said, this decision would be
the same even if the Complaint alleged misuse of
the Photo in the physical exhibition also.

4

The online catalogue can be found at
https://www.metmuseum.org/exhibitions/listings/20
19/play-it-loud. The Photo itself is posted to
https://www.metmuseum.org/art/collection/search/7
52454. Compl. ¶ 10; Compl., Ex.B. As of the date of
this Opinion, both webpages are up and available.

5

For example, the background text explains that the
“Frankenstein” guitar “was pieced together by
Eddie VanHalen from modified factory seconds and
mismatched odd-lot parts, then spray-painted. It
represents an effort to combine some of the most
desirable elements of Gibson and Fender guitars
into a single instrumentthat was not commercially
available at the time. Van Halen was continually
striving to achieve the ultimate guitar for tone,
playability, dependability, and functionality. One of
the most recognizable guitars of all time, it spawned

37a
legions of copies from other manufacturers and
inspired generations of fans to design their own
instruments.” Compl., Ex. B; Steinman Decl., Ex. E.
6

The Photo is now credited to Plaintiff. Compare
Compl., Ex. B, with Steinman Decl., Ex. E.

7

Plaintiff acknowledges that “[a] court ‘may
conclude as a matter of law that the challenged
use does not qualify as a fair use of the copyrighted
work.’ ” Pl. Resp. at 2 (quoting Harper & Row
Publishers, Inc. v. Nation Enters., 471 U.S. 539,
560, 105 S.Ct. 2218, 85 L.Ed.2d 588 (1985)).

8

See, e.g., Brownmark Films, LLC v. Comedy
Partners, 682 F.3d 687, 690 (7th Cir. 2012) (“[T]he
only two pieces of evidence needed to decide the
question of fair use [at this early stage of the
proceedings] are the original version of WWITB and
the episode at issue.”); Swatch Grp. Mgmt. Servs.
Ltd. v. Bloomberg L.P., 756 F.3d 73, 86 (2d Cir.
2014) (affirming the district court's pre-discovery
fair use ruling, noting that the“discovery [plaintiff]
seeks would not alter our analysis”); Lombardo v.
Dr. Seuss Enters., 279 F. Supp. 3d 497, 505
(S.D.N.Y. 2017), aff'd, 729 F. App'x 131 (2d Cir.
2018) (“[A]lthough discovery might yield additional
information about plaintiffs’ intent, such
information is unnecessary to resolve the fair use
issue [on a Rule 12(c) motion]; all that is needed is
the parties’ pleadings, copies of Grinch and the
Play, and the relevant case law.”).

9

The purpose of the Met's use was arguably more
different in its secondary use than the Bill Graham
defendant's. In Bill Graham, both the original
concert posters and the reproduced versions in the
book conveyed information about the band's
concert—the primary difference being that the
former conveyed information about the band's
forthcoming concert, while the latter documented

38a
and represented the actual occurrence of the band's
past concert. See 448 F.3d at 609. In the instant
case, the Photo and the Met's secondary use
communicate fundamentally different messages:
while the Photo originally showcased Van Halen, Pl.
Resp. at 5, the secondary use shifts that focus to the
“Frankenstein” guitar to visually contextualize its
significance.
10

Plaintiff asserts that “there can be no dispute that
Defendant charges patrons admission to view
Plaintiff's photograph on Fifth Avenue.” Pl. Resp. at
5. As noted in the main text, Defendant's business
model is not the critical issue given the
transformative use, but it is worth noting that the
only use complained of in the Complaint is the Met's
use of the Photo in the online catalogue of the
exhibition, see supra note 3; there is no charge for
viewing the online catalogue. Thus, despite
Plaintiff's rant in his sur-reply (“Plaintiff is entitled
to discovery on the issue of how many people paid
to see Plaintiff's work ”), Pl. Sur-Reply at 3, no one
paid anything to see the use of the Photo
complained of in the Complaint.

